HHS/OIG-Audit--"Public Health Service Contract Pre-Award Audits Issued DuringFiscal Year 1991, (A-02-92-02518)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Public Health Service Contract Pre-Award Audits Issued During Fiscal Year 1991," (A-02-92-02518)
December 30, 1992
Complete
Text of Report is available in PDF format (865 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report summarizes 50 contract pre-award audit reports issued by the Office of Audit Services in Fiscal Year
(FY) 1991. A majority of the proposals we reviewed contained overstated and unsupported projected costs of approximately
$85 million. The Public Health Service (PHS) contains to sustain a significant amount of the findings of overstated or
otherwise unreasonable costs. Where proposals were eventually awarded, the PHS concurred in about $4.8 million of recommended
audit adjustments and reduced funding $4.8 million of recommended audit adjustments and reduced funding by about $12.6
million because of costs set aside (costs which were undocumented) by our audits. Further, regarding proposals in our review
which were not funded by PHS, there were $8 million in audit adjustments and about questionable proposed charges were justified
by additional documentation or other evidence or allowability or reasonableness.